No. 20-1434
IN THE

Supreme Court of the United States
LESLIE RUTLEDGE, IN HER OFFICIAL CAPACITY AS THE ATTORNEY GENERAL OF ARKANSAS, ET AL.,
Petitioners,
v.
LITTLE ROCK FAMILY PLANNING SERVICES, ET AL.,
Respondent.
CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that the Brief Amicus Curiae
of Americans United for Life in Support of Petitioner contains 4,549 words, excluding
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 13 day of May 2021.

STEVEN H. ADEN
Counsel of Record
AMERICANS UNITED FOR LIFE
1150 Connecticut Ave NW, Suite 500
Washington, DC 20036
Steven.Aden@aul.org
(202) 741-4917
Counsel for Amicus Curiae



